1.	     FINANCIAL REPORTING PROCESS

        SBA faced a difficult challenge with new reporting requirements under the full implementation of
OMB Bulletin 97-01. Specifically, the bulletin required preparation of three statements that SBA and
other Federal agencies had not prepared. Despite its efforts, SBA was not adequately prepared for these
reporting changes. During our FY 1998 audit, we found that:

        •	       SBA’s comprehensive plan for preparing financial statements lacked sufficient detail.

        •	       SBA’s quality control process was not completely effective.

        •	       SBA management did not dedicate enough resources to ensure timely completion of its
                 financial statements.

        As a result, SBA did not meet OMB’s March 1 deadline for submitting its audited financial
statements and, in fact, did not provide financial statements to its auditors until June 2, 1999. Further, the
statements submitted to its auditors contained several significant errors and omissions. For example,
SBA failed to report on its Statements of Changes in Net Position and Financing the amount of Imputed
Financing as required by OMB Bulletin 97-01; several changes were necessary to its footnotes; and over
$80 million in projected errors were identified in SBA’s financial statements.

         SBA’s comprehensive plan for preparing financial statements lacked sufficient detail.
During the course of our audit of SBA’s Fiscal Year (FY) 1997 financial statements, we reported that
improvements were needed at SBA to ensure compliance with the Government Management Reform Act
of 1994 (GMRA), which requires Federal agencies to submit audited department-wide financial
statements to OMB by March 1. SBA did not meet the due date for FY 1998, because it had not
sufficiently implemented needed improvements.

         We recommended to SBA that it develop a comprehensive plan for financial reporting that
identified the following, in detail:

        •	       Procedures required for acquiring documentation and preparing financial statements
                 according to an established timetable.

        •	       Individual who will perform critical functions.

        •	       Deadlines for each critical phase of the plan.

        •	       A description of how each of the programs will consolidate into a consistent, agency-
                 wide financial statement presentation.

        SBA did prepare a plan—Comprehensive Plan for FY 1998 CFO Annual Report. This plan did
not, however, provide detailed procedures for acquiring documentation and preparing financial statements
or how SBA would consolidate its programs into an agency-wide financial statement presentation.
Further, we noticed that SBA did not perform basic, routine analyses, such as aging of accounts
receivable and comparison of prior- and current-year amounts.

        SBA’s quality control process was not completely effective. Although SBA’s plan identified
individuals responsible for quality control reviews of the financial statements, we found several errors and
omissions on the statements. Errors occurred when those responsible for performing quality reviews also
had concurrent responsibility for preparing the financial statements. Also, according to SBA personnel,
the amount of time between completion of the financial statements and submission to the auditors did not
allow enough time for a sufficient quality control review. Thus, errors and omissions occurred.

        SBA management did not dedicate enough resources to ensure timely completion of the
financial statements. With new requirements under full implementation of OMB Bulletin 97-01, SBA
faced a difficult challenge. OMB Bulletin 97-01 required preparation of the Statements of Budgetary
Resources and Financing. These two statements required complete and accurate budgetary data, which
SBA’s loan accounting system could not readily provide. As a result, SBA developed a manual process
for acquiring this information and preparing the statements. SBA did not, however, assign enough
resources to this manual process, and deadlines were missed. For example, in its Comprehensive Plan for
FY 1998, SBA established December 1, 1998, as the completion date for its general ledgers but did not
submit all of its general ledgers to the auditors until June 2, 1999—6 months late.

                             Recommendations. We recommend that:

         •	     The Director of the Denver Finance Center develop a detailed comprehensive plan for
                preparing the FY 1999 financial statement report.

         •	     Office of the Chief Financial Officer (OCFO) identify and obtain the resources necessary
                to ensure accurate and timely preparation of FY 1999 financial statements including
                adequate resources to conduct a thorough quality control review of the financial
                statements prior to submission to the auditors.

         •	     OCFO obtain training for all staff assuming financial reporting responsibilities.

    2.          SUBSIDY MODELING AND RE-ESTIMATING PROCESSES

         SBA’s internal control functions governing credit reform subsidy modeling and re-estimating
processes continue to need improvement. During our audit of SBA’s FY 1997 financial statements, we
noted that substantial errors in re-estimate calculations existed, and few controls governed the budget
execution and re-estimate subsidy processes. We recommended that, at a minimum, SBA document its
policies and procedures governing its credit subsidy process, develop a formalized quality review
program, and ensure that adequate time and resources are available to effectively implement these
controls.

         Responsibility for accumulating and analyzing data, designing credit subsidy models, and
calculating budget estimates and re-estimates lies with the OCFO. In response to our FY 1997 audit
report recommendation, OCFO:

         •	     Prepared a comprehensive policies and procedures document for preparing subsidy
                estimates and re-estimates, which includes an overview of the process, programs and
                assumptions, data, documentation and training requirements, and deliverables and a
                timeline for their completion.

         •	     Developed and implemented a quality assurance process that, for re-estimates, included a
                peer review by an analyst not responsible for preparing the re-estimate under review and
                a supervisory review.
        We were not, however, able to determine the extent of these reviews, because review
documentation was not always completed or available. As with other agencies subject to credit reform,
SBA maintains separate subsidy rate models for each program and cohort year on spreadsheets containing
numerous cell-references, formulas, and links to other spreadsheets. These models are inherently
susceptible to error, alteration, and inconsistency and, thus, require detailed, labor intensive review.

        Although SBA performed some peer and supervisory reviews of its 7(a), 504, and disaster re-
estimates, we noted similar deficiencies in the re-estimates prepared for the FY 1998 financial statements
as noted last year. For example, SBA used incorrect data and incorrect cell references in several re-
estimate spreadsheets. It also did not detect the failure to calculate interest on the Cohort 1998 re-
estimate as the result of an error in the OMB-provided spreadsheet. Finally, SBA did not correctly treat
chargeoffs consistent with the method established for FY 1997. These errors resulted in adjustments of
more than $195 million to the re-estimates submitted for the FY 1998 financial statement audit.

         An effective quality review process is essential to ensure that the work of assigned staff is
adequately supervised, reviewed, and approved, as required by GAO’s Standards for Internal Controls in
the Federal Government. SBA must ensure that the peer and supervisory reviewers have the experience,
training, and time commensurate with the inherently high risk associated with the re-estimate process.

        We also noted that SBA’s disaster models produce a reliable budget execution estimate, but, in
our opinion, do not produce a reliable re-estimate or comply with the OMB Credit Subsidy User’s Guide
(Chapter V, I.B.1). This occurs as the result of limitations with SBA’s current method of accumulating
cash flows. SBA obtained proxy data, which was the best data available at the time. In our opinion,
however, the methodology used in applying the proxy data did not reflect projected program behavior and
produced illogical results. Consequently, SBA adjusted its disaster re-estimates by $453 million from a
$126 million downward re-estimate to a $327 million upward re-estimate.

        SBA recognized that its existing re-estimate models have limitations, and began working on new
methods for accumulating disaster data and computing subsidy estimates and re-estimates in FY 1999.
While we agree with SBA’s decision to develop a new model, we do not think the existing model was
subjected to sufficient scrutiny to ensure that it produced a reasonable outcome for the FY 1998 re-
estimates in light of its known shortcomings.

Recommendations. We recommend that OCFO:

        •	      Continue to refine its quality assurance process to ensure that peer and supervisory
                reviewers have the experience, training, and time to perform reviews commensurate with
                the inherently high risk associated with SBA’s existing re-estimate process.

        •	      Arrange for an independent review of the new disaster models and ensure that the new
                models produce reliable and reasonable re-estimates prior to submitting the re-estimates
                for audit.

                                3.      INFORMATION SYSTEMS

         Although Office of Chief Information Officer (OCIO) and OCFO have taken steps in FY 1998 to
implement corrective actions within their areas of responsibilities, further improvements are needed to
address the root causes of the general control weaknesses over SBA's information systems. During our
audit of SBA’s FY 1998 financial statements, we found that SBA needs to:
        •	      Fund and implement an entity-wide security program.

        •	      Eliminate and reduce unnecessary and excessive access privileges that lessen
                accountability and create segregation-of-duties weaknesses.

        •	      Consistently apply application development and change control procedures.

        •	      Monitor programmer ability to access operating systems.

        •	      Train security administrators and program managers.

        The Office of Inspector General issued a separate report, Audit of SBA's Information Systems
Controls (Report Number: 9-19), on September 2, 1999, which details our findings and recommendation.

        Our consideration of internal controls over financial reporting would not necessarily disclose all
matters in the internal control structure over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also considered to be
material weaknesses as defined above. We consider the three reportable conditions described above to be
material weaknesses.

         In addition, we considered SBA’s internal controls over Required Supplementary Stewardship
Information by obtaining an understanding of SBA’s internal controls, determining whether those internal
controls had been placed in operation, assessing control risk, and performing tests of controls as required
by OMB Bulletin No. 98-08, as amended. Our procedures were not designed to provide assurance on
these internal controls. Accordingly, we do not express such an opinion.

         Finally, with respect to internal controls related to performance measures reported in the sections
titled Agency Overview and SBA Program Description and Analysis, we obtained an understanding of
the design of significant internal controls related to existence and completeness assertions as required by
OMB Bulletin No. 98-08, as amended. Our procedures were not designed to provide assurance on
internal controls over reported performance measures, and, accordingly, we do not express such an
opinion.

        We also noted other matters involving internal controls over financial reporting and its operation
that we consider nonreportable conditions. We will communicate these matters to management in a
separate letter.

       This report is intended solely for the information and use of the management of SBA, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.
We caution that misstatements, losses, and noncompliance may occur and not be detected by the testing
performed and that such testing may not be sufficient for other purposes.

                                      COTTON & COMPANY, LLP
                                           REPORT DISTRIBUTION

Recipient                                                             Copies
Administrator                                                         1

Deputy Administrator                                                  1

Associate Deputy Administrator for                               1

 Management & Administration


Associate Administrator for Field Operations                          1


Associate Administrator                                               1

 Office of Congressional & Legislative Affairs


Associate Administrator                                               1

 Office of Financial Assistance


Chief Information Officer                                             1


Chief Financial Officer                                               1


General Counsel                                                       2


General Accounting Office                                             2

